Department of Homeland Security
   Ofﬁce of Inspector General


        Efficacy of Customs and Border Protection’s 

                      Bonding Process 





OIG-11-92                                          June 2011
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                              June 27, 2011          

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the efficacy of U.S. Customs and Border Protection’s bonding
processes. It is based on interviews with employees and officials of relevant agencies
and institutions, direct observations, and review and testing of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all who contributed to the preparation of this report.


                                     Anne L. Richards
                                     Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Results of Audit ...................................................................................................................3 


     CBP Does Not Have Adequate Controls Over Its Single Transaction Bond Process ...3 


     Recommendations..........................................................................................................8 


     Management Comments and OIG Analysis ..................................................................8 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................11 

     Appendix B:           Management Comments to the Draft Report .......................................12 

     Appendix C:           Major Contributors to this Report ........................................................14 

     Appendix D:           Report Distribution ..............................................................................15 


Abbreviations
     ACE                   Automated Commercial Environment 

     ACS                   Automated Commercial System 

     AD                    antidumping             

     CBP                   U.S. Customs and Border Protection 

     Commerce              Department of Commerce 

     CV                    countervailing            

     DHS                   Department of Homeland Security 

     FY                    fiscal year           

     GAO                   Government Accountability Office 

     OIG                   Office of Inspector General 

     SEB                   single entry bond 

     STB                   single transaction bond        

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                  U.S. Customs and Border Protection have responsibility for
                  protecting revenue collection and enforcing trade compliance by
                  the use of bonds. In fiscal year 2010, Senator Charles Grassley
                  expressed concerns about alleged deficiencies in U.S. Customs and
                  Border Protection’s revenue collection program. This is the
                  second of a series of audits conducted to address Senator
                  Grassley’s concerns. Our audit objective was to determine the
                  efficacy of U.S. Customs and Border Protection’s process for
                  determining and applying bonds in sufficient amounts. These
                  bonds serve as insurance for the agency to cover importer duties,
                  fees, and taxes should the importer fail to pay revenues as required
                  on goods brought into the United States.

                  Although U.S. Customs and Border Protection has strong controls
                  over continuous bonds, it does not have adequate controls over the
                  single transaction bond process, and its method for determining
                  and applying single transaction bonds is ineffective. We estimate
                  that approximately $8 billion of $12 billion in single transaction
                  bonds for importer/broker entries accepted by U.S. Customs and
                  Border Protection during fiscal year 2009 contain errors that may
                  result in noncollection. Additionally, our analysis shows $1.5
                  billion at risk of loss for imports subject to other government
                  agency requirements. We attribute this condition to U.S. Customs
                  and Border Protection’s need for—

                  •	 Oversight for the single transaction bond process;
                  •	 A risk-based management approach to reduce potential revenue
                     loss associated with bonds; and
                  •	 An automated single transaction bonds process.

                  Consequently, U.S. Customs and Border Protection’s ability to
                  meet its strategic goals of revenue collection and enforcement
                  using single transaction bonds is jeopardized.

                  U.S. Customs and Border Protection officials concurred with all
                  the recommendations. Appendix B contains written responses to
                  the recommendations from U.S. Customs and Border Protection.



             Efficacy of Customs and Border Protection’s Bonding Process


                                       Page 1

Background
                             U.S. Customs and Border Protection (CBP) is responsible for
                             collecting import duties, taxes, and fees. In fiscal year (FY) 2010,
                             imports totaled approximately $2 trillion, and CBP collected
                             approximately $32 billion in duties, taxes, and fees. CBP has the
                             authority to require bonds from parties that import merchandise
                             into the United States. 1 A bond is a contract between a principal
                             and a surety, with CBP serving as the beneficiary. Bonds serve as
                             an insurance policy, protecting CBP from revenue loss when
                             importers fail to fulfill their financial obligations. The assessment
                             of liquidated damages against a bond also serves to promote
                             compliance with laws and regulations.

                             CBP has two primary types of bonds: continuous and single
                             transaction. Importers who have a large number of entries or
                             imports during a given year usually obtain continuous bonds,
                             which have a term of 1 year, automatically renew annually, and
                             remain valid until terminated by the surety or the principal. The
                             minimum continuous bond amount is the greater of $50,000 or
                             10% of the total taxes and fees paid in the previous 12-month
                             period. The Debt Management Branch within the Revenue
                             Division of the Office of Administration oversees and administers
                             the continuous bond program.

                             Single transaction bonds (STBs) can serve as security for
                             individual shipments or as additional collateral in conjunction with
                             continuous bonds. They cover only the transaction for which they
                             were written. Port Directors in the Office of Field Operations have
                             the authority to require additional security in the form of an STB,
                             and have the responsibility to set the bond amount and to validate
                             its accuracy and completeness. The STB amount is generally one
                             to three times the total entered value of the merchandise plus
                             duties, taxes, and fees, depending on the revenue risk. CBP does
                             not have a centralized office responsible for overseeing and
                             administering the STB program.

                             In 2002, CBP made revenue a Priority Trade Issue, with a focus on
                             improving revenue collection, trade compliance, and trade
                             facilitation. CBP prepares an annual Revenue Priority Trade Issue
                             plan that assesses risks, threats, and vulnerabilities to revenue
                             collection. The plan also establishes annual priorities for reducing
                             revenue risk and includes milestones, due dates, and performance
                             measurements. The plan identifies bonds as a risk mitigation tool

1
    Title 19, United States Code, Section 1623.

                       Efficacy of Customs and Border Protection’s Bonding Process
 


                                                  Page 2
 

                          for various programs. In 2009, CBP created a Revenue Risk
                          Working Group to identify ways CBP could better ensure that
                          revenue was adequately secured.

                          U.S. law authorizes the imposition of antidumping/countervailing
                          (AD/CV) duties to remedy the adverse impact of unfair foreign
                          trade practices on domestic industries. 2 The United States
                          Department of Commerce (Commerce) imposes AD/CV duties on
                          merchandise imported into the United States at less than its fair
                          value (dumping) or that is subsidized by foreign governments
                          (countervailing). Commerce is responsible for determining if
                          dumping or countervailing has occurred, and the U.S International
                          Trade Commission is responsible for determining whether a
                          domestic industry is materially injured, or threatened with material
                          injury. For CV duties, a “material injury” determination is
                          required only for merchandise imported from a “Subsidies
                          Agreement Country,” as defined by 19 USC § 1671(b). Once the
                          required determinations are made, Commerce directs CBP to
                          collect duties at a rate equal to the amount by which the normal
                          value of the merchandise exceeds the export price (antidumping)
                          or an amount equal to the net subsidy (countervailing).

                          If the duty rate paid at the time of import is higher than the final
                          duty rate, CBP refunds money to the importer. If the duty rate paid
                          at the time of import is lower than the final duty rate, CBP issues a
                          supplemental bill to the importer. The Government Accountability
                          Office (GAO) found that the entire process takes an average of 3.3
                          years. 3 By the time Commerce directs CBP to retrospectively
                          collect the final duty amount on an entry, importers may be
                          unwilling or unable to pay or may have disappeared altogether,
                          resulting in significant revenue loss to the government.

Results of Audit
        CBP Does Not Have Adequate Controls Over Its Single
        Transaction Bond Process
                 Although CBP has strong controls over continuous bonds, it does not have
                 adequate controls over the STB process. CBP cannot identify the number
                 of STBs, has inaccurate and incomplete bonds, does not maintain and
                 review bonds as required, underutilizes its bond authority, and does not

2
  The Tariff Act of 1930, as amended, authorizes the imposition of these duties. AD duties are authorized
by 19 U.S.C § 1673 and CV duties are authorized by 19 U.S.C § 1671.
3
  Antidumping and Countervailing Duties: Congress and Agencies Should Take Additional Steps to Reduce
Substantial Shortfalls in Duty Collection (GAO 08-391), March 2008.

                    Efficacy of Customs and Border Protection’s Bonding Process


                                                 Page 3

                adhere to its monetary guidelines for entries with other government
                agencies requirements. We attributed these conditions to CBP’s need
                for—

                •	 Oversight over the STB process to ensure that personnel apply
                   bonding policies and procedures sufficiently, appropriately, and
                   consistently;
                •	 A risk-based management approach that includes identification,
                   assessment, and mitigation of the risk of revenue loss associated with
                   bonds; and
                •	 An automated STB process.

                Failure to establish adequate controls over the STB process may result in
                revenue loss from fraud, waste, or mismanagement.

                        Bond Universe

                        CBP cannot identify the number of STBs because of limitations in
                        the Automated Commercial System (ACS), which is used to report
                        entry data. Although the Automated Commercial Environment
                        (ACE), CBP’s system of record, has the capability to enter bond
                        information for multiple bonds, CBP does not currently require
                        importers to file all entries in ACE. ACS has only one field for
                        bond coverage, and it cannot record bond information for imports
                        that require both a continuous bond and an STB. In such cases, the
                        system defaults to a continuous bond, thereby not capturing actual
                        revenue exposure on high-risk imports. This limitation creates a
                        challenge when CBP attempts to collect past-due revenue. Since
                        ACS does not contain any STB information, CBP’s Debt
                        Collection Division must manually call each port to determine if
                        STBs exist. The port conducts a manual search to identify STBs
                        and forwards the information to the Debt Collection Division.
                        This labor-intensive practice hinders CBP’s debt collection process
                        and reporting.

                        CBP has attempted to mitigate the system limitations by requiring
                        ports 4 to record general STB information for AD/CV entries using
                        the ACS notes section. However, our review showed that ports do
                        not consistently follow this direction. Two out of nine importers
                        with both continuous bonds and STBs for their AD/CV entries in
                        ACS did not have system notes with the required STB information.



4
 CBP Memorandum, Procedures for AD/CVD Entries with a Single Entry Bond, September 26, 2003;
CBP Memorandum, Single Entry Bond (SEB) ACS Note Requirement, February 24, 2004.

                  Efficacy of Customs and Border Protection’s Bonding Process


                                             Page 4

                          Inaccurate and Incomplete Bonds

                          CBP has experienced significant losses from weaknesses in bond
                          validation and approval controls. From FY 2007 through FY 2010,
                          CBP has written off $46.3 million 5 in revenue because of
                          inaccurate, incomplete, or missing bonds.

                          Although CBP guidance exists regarding STB approval and
                          validation, ports do not consistently apply it. Federal regulations
                          provide specific information that STBs must include prior to
                          CBP’s approval. 6 We reviewed a statistical sample of FY 2009
                          STBs 7 totaling $8.3 million. Our review showed that 230 of 382
                          (60%) of the STBs, totaling approximately $5.3 million, had one or
                          more errors that may impact CBP’s ability to recover revenue, if
                          necessary. CBP should have rejected these bonds because of
                          inaccuracies and incompleteness.

                          Included in the $5.3 million noted above, STBs totaling
                          approximately $1.1 million had major omissions or errors such as
                          missing signatures and inaccurate transaction numbers, which may
                          create collection challenges. Based on these testing results, we
                          conclude that approximately $8 billion of the $12 billion in STBs
                          accepted by CBP during FY 2009 contain errors that may result in
                          noncollection.

                          Bond Maintenance

                          CBP does not always maintain original STB documents at the
                          ports. Of the 71 ports responsible for processing STB entries, our
                          structured interview questionnaire showed that 18% (13) do not
                          maintain copies of all the bond files and/or allow brokers to
                          maintain the STBs. Federal regulation requires that Port Directors
                          retain copies of all approved bonds at the port unless otherwise
                          directed in writing by the Director of the Border Security and
                          Trade Compliance Division. 8

                          If CBP relies on the broker to ensure a bond’s existence, it has no
                          assurance that the broker can produce the bond when needed for
                          collection purposes. Additionally, there is a potential for collusion
                          between the broker and the importer. For example, in some

5
  Write-offs include losses from continuous bonds accepted prior to the centralization of the CBP program
 

in Indianapolis. 

6
  19 CFR § 113.21 (2010). 

7
  Because of scope limitations in identifying the total STB universe, we limited our testing to FY 2009 

importer/broker entries secured exclusively by STBs. 

8
  19 CFR § 113.15 (2010). 


                    Efficacy of Customs and Border Protection’s Bonding Process


                                                  Page 5

                           instances, it may be cheaper for the importer to pay liquidated
                           damages for failure to produce the bond document than to purchase
                           an STB and attach collateral.

                           Underutilization of Bond Authority

                           Port Directors do not consistently exercise their authority to
                           require additional security on high-risk imports when reasonable
                           evidence exists showing revenue risk. Port Directors do not
                           always require STBs for high-risk practices such as entries with
                           undervalued merchandise, misclassifications resulting in higher
                           duty rates, or liquidated damages and penalties assessed for prior
                           noncompliance with laws, regulations, or policies. Port Directors
                           should require STBs in instances where the continuous bond does
                           not adequately protect against noncompliance.

                           Federal regulation gives CBP Port Directors the authority to require
                           additional security if accepting a transaction secured by continuous
                           bond would put the revenue at risk or otherwise hamper the
                           enforcement of Customs laws or regulations.9 Responses to our
                           structured interview questions of Port Directors indicated that 85%
                           of the ports do not perform any type of revenue risk analysis to
                           determine the need for an STB. When the Port Directors recognize
                           the need for additional security, approximately 72% of the ports
                           rarely or never require an STB. Port personnel stated that CBP
                           guidance provided to them regarding how to estimate the actual
                           level of revenue risk and to document the risk is not clear. Other
                           CBP personnel expressed concerns that STBs have a negative
                           impact on trade facilitation and may cause some importers financial
                           hardships because of the additional cost of STBs and the collateral
                           required by many sureties.

                           Risk-Based Bonding

                           CBP has not yet developed a risk management process that
                           effectively uses bonds to mitigate the revenue loss on high-risk
                           imports, such as AD/CV. AD/CV activities of high-risk imports
                           have resulted in significant revenue loss over the past several
                           years. AD/CV write-offs from FYs 2007 through 2010 total $48
                           million and represent 51% of the total charge-offs for these years.
                           As of June 2010, CBP had approximately $1 billion in AD/CV
                           past-due bills that is at risk of revenue loss because of inadequate
                           security.


9
    19 CFR § 113.13(d) (2010).

                      Efficacy of Customs and Border Protection’s Bonding Process


                                                Page 6

     We reviewed 4,559 past-due AD/CV duty bills as of FY 2010
     totaling $145.8 million from 13 importers. These importers had
     continuous bonds and also paid AD/CV duties in cash at the time
     of importation. However, following the completion of
     Commerce’s required administrative review, AD/CV duty rates on
     these shipments increased significantly, requiring CBP to issue
     supplemental bills for additional AD/CV duties. With only
     $2 million in current continuous bond coverage (approximately
     1.5% of the outstanding bills), CBP will not collect $143 million in
     unsecured revenue.

     CBP can improve revenue collection by developing a risk-based
     bonding approach that considers continuous bonds and STBs.
     While we acknowledge that CBP cannot eliminate all risk, it can
     improve revenue collection by developing guidelines that evaluate
     the revenue risk of imports and delineate risk levels that would
     require additional bonding.

     CBP recognizes the need to improve revenue collection for high-
     risk imports. Despite its legal failure to implement an enhanced
     continuous bond requirement for AD/CV entries, it continues to
     consider other options. It developed an FY 2011 annual Revenue
     Priority Trade Issue Plan and established the Revenue Risk
     Working Group in 2009 to identify high-risk revenue areas.
     Although it is moving in the right direction, CBP needs to continue
     to take action to reduce and mitigate revenue risk for high-risk
     revenue areas, especially AD/CV entries.

     Nonadherence to Monetary Guidelines for Entries With Other
     Agency Requirements

     CBP does not follow its monetary guidelines for setting STB
     amounts for merchandise, such as chemicals, food, or drugs for
     human use and consumption. Other government agency
     requirements could include redelivery requests by the
     Environmental Protection Agency and the Food and Drug
     Administration for merchandise that poses a risk to the public
     health and safety. Entry of merchandise with other government
     agency requirements has a higher risk for liquidated damages than
     other entries. These entries can result in significant losses because
     the merchandise may be subject to recall because of potential
     public health and safety threats. CBP is required to set STBs in
     amounts no less than three times the total entered value of such
     merchandise.



Efficacy of Customs and Border Protection’s Bonding Process


                          Page 7

                          From our statistical sample of FY 2009 10 STBs totaling
                          $8.3 million, we tested bond sufficiency for merchandise subject to
                          other government agency requirements. Our testing showed 31
                          insufficient STBs totaling $623,855 that were insufficient by
                          approximately $1 million. The average shortfall on the STBs was
                          approximately $17,000.

                          Based on our testing, we project that CBP should have required
                          approximately $1.5 billion more in STBs during FY 2009 to cover
                          risk of imports subject to other government agency requirements.
                          Failure to require sufficient security on these higher-risk imports
                          may result in significant loss if importers fail to comply with
                          health and safety standards and CBP has to recall the merchandise.

        Recommendations
                 We recommend that Customs and Border Protection’s Assistant
                 Commissioners—

                          Recommendation #1: Appoint a centralized office with the
                          responsibility for developing and implementing single transaction
                          bond policy, reporting on activities, and monitoring results.

                          Recommendation #2: Consider automating the single transaction
                          bond process to provide enhanced tracking ability and control over
                          these bonds.

                          Recommendation #3: Develop formal policies and procedures for
                          the validation, approval, sufficiency, and storage processes for
                          single transaction bonds.

                          Recommendation #4: Improve revenue risk management by
                          developing a risk-based bonding methodology for use on high-risk
                          revenue imports that incorporates continuous bonds and single
                          transaction bonds.

        Management Comments and OIG Analysis
                          We obtained written comments on the draft report from CBP’s
                          Assistant Commissioner, Officer of Internal Affairs. We included
                          a copy of the management comments in their entirety in Appendix
                          B. The following is an evaluation of CBP’s official response.


10
  Because of scope limitations in identifying the total STB universe, we limited our testing to FY 2009
importer/broker entries secured exclusively by STBs.

                    Efficacy of Customs and Border Protection’s Bonding Process


                                                  Page 8

     Management Response on Recommendation #1

     CBP concurred with this recommendation and has already begun
     delineating the roles and responsibilities among offices.
     Centralization will focus on two main program areas: bond
     administration and bond policy, which will include risk-based
     assessments and analysis for determining when an STB should be
     used as additional security.

     OIG analysis: We consider CBP’s proposed action responsive to
     the recommendation and consider the recommendation resolved.
     However, it will remain open until CBP provides evidence to show
     how the centralized process works in relation to policy development,
     reporting, and monitoring of the STB process.

     Management Response on Recommendation #2

     CBP concurred with this recommendation and has incorporated the
     requirement for bond automation into the ACE Cargo Release
     requirements.

     OIG analysis: We consider CBP’s proposed action responsive to
     the recommendation and consider the recommendation resolved.
     However, it will remain open until we receive evidence showing
     that the ACE Cargo release requirements properly address STB
     automation. CBP should also provide a deployment schedule for
     the new capability.

     Management Response on Recommendation #3

     CBP concurred with this recommendation and will review and
     update policies.

     OIG analysis: We consider CBP’s proposed action responsive to
     the recommendation and consider the recommendation resolved, but
     it will remain open until we receive copies of the revised policies
     that adequately address problems identified during the audit.

     Management Response on Recommendation #4

     CBP concurred with the recommendation and will continue
     working on the development of a risk-based bonding methodology
     for high-risk imports that considers the use of continuous and
     single transaction bonds.



Efficacy of Customs and Border Protection’s Bonding Process


                          Page 9

     OIG analysis: We consider CBP’s proposed action responsive to
     the recommendation and consider the recommendation resolved.
     However, it will remain open until we receive evidence showing
     that CBP has developed a risk-based bonding methodology that
     addresses high-risk imports and reduces revenue risk.




Efficacy of Customs and Border Protection’s Bonding Process
 


                          Page 10
 

Appendix A
Purpose, Scope, and Methodology


                   This report provides the results of our work to determine the
                   efficacy of Customs and Border Protection’s process for
                   determining and applying bonds in sufficient amounts to cover
                   importer duties, fees, and taxes should the importer fail to pay
                   revenues as required on goods brought into the United States.

                   We visited seven ports of entry that handle STBs, in Long Beach
                   and San Francisco, CA; New York, NY; Newark, NJ; Chicago, IL;
                   Miami, FL; and Baltimore, MD. At each site, we interviewed Port
                   Directors and port personnel, and directly observed CBP’s bonding
                   process.

                   We judgmentally selected and reviewed 100 continuous bonds
                   from a statistical sample of 383 active continuous bonds as of May
                   2010. We reviewed 382 STBs from a statistical a sample of 384
                   single-transaction-type entries from the universe of FY 2009
                   single-transaction-type entries in the Automated Commercial
                   System. We tested continuous bonds and STBs for accuracy,
                   completeness, and sufficiency of bond amounts. To compensate
                   for system limitations in identifying entries with both a continuous
                   bond and an STB, we reviewed bond coverage for 6,221 AD/CV
                   open bills as of FY 2010 related to 21 importers.

                   We assessed the existence and implementation of CBP’s policies
                   and procedures for the bonding process. We used a structured
                   questionnaire to interview 71 Port Directors responsible for the
                   STB program. We interviewed officials and personnel from
                   various offices and groups within CBP involved in the bond
                   process, including the Office of Administration, Revenue Division
                   of the Debt Management Branch; Chief Counsel at the National
                   Finance Center in Indianapolis; the Revenue Risk Working Group;
                   Office of International Trade; Office of Field Operations; and
                   Management Inspections Division at Internal Affairs. We also met
                   with personnel from the Department of Commerce to discuss risks
                   involved with AD/CV cases.

                   We conducted our audit between March 2010 and January 2011
                   under the authority of the Inspector General Act of 1978, as
                   amended, and according to generally accepted government
                   auditing standards. Those standards require that we plan and
                   perform the audit to obtain sufficient, appropriate evidence to
                   provide a reasonable basis for our findings and conclusions based
                   on our audit objectives. We believe that the evidence obtained
                   provides a reasonable basis for our findings and conclusions.

              Efficacy of Customs and Border Protection’s Bonding Process


                                        Page 11

Appendix B
Management Comments to the Draft Report



                                                                           1300 P nos)·lval1l' Avenue NW
                                                                           WashIngton, DC 20229


                                                                           u.s. Customs and
                                                                           Border Protection
                                                                          May 16,2011




          MEMORANDUM F
                                                                 ERAL FOR UDIT
                                                                 D EC RITY

          FROM:                  A iSlam Commissioner
                                 Office of Inlernal Affairs
                                  . . Cusloms and Border           n

             I3JE T:             Response lO the Offiee of Inspector General's Draft Repon
                                 Entitled. "Efficacy ofCu lom and B rder Prolection's
                                 Bonding Procc s"

          Thank.ou for providing us with a copy of your draft repon entilled "Efficacy 0 u loms
          and Border Protection's Bonding Process:' and the opporlunity (0 ommem on the i ue
          in this repon.

          The report eonlain four recommendations directed to . . u loms and Border
          Protection ( BP). A summar ofCBP action and orrecti e plan ( address the
          recommendations is provided belo' :

          Recommendation #1; ppoint a centralized office with the re pon ibility for
          developing and implementing single tran action bond policy, reporting on acH ities,
          and monitoring results.

          CRP I~csponse: Concur. CBP agrees that ingle lransa lion bond ( TB) policy.
          reponing on aClivilies and moniloring re ults hould be cemraliz d. \ e have alrcady
          begun delineating the roles and responsibililie as igned among our various offices.
          II wever. bond policy cncompasses two main program areas; one is bond administration.
          regarding the pr per completion. applicalion procedures and required minimum bond
          amount. The other program area includes de eloping policies, risked based assessments
          and analysis needed lO determine when TB' should be u ed a additional eeurity to
          protect against rcvenue loss. and whatthc amounts should be. Both competencie are not
          I ated in anyone office. We will proceed to\ ards eemralization with thi a premise.

           ompletion Date; May 15.2012

          Recommendation #2: Consider automating thc single transacti n b nd pr ces to provide
          enhanced tracking abilil ' and control 0 er lhese bonds.




               Efficacy of Customs and Border Protection’s Bonding Process
 


                                                 Page 12
 

Appendix B
Management Comments to the Draft Report



                                                      2


          eBP Respon e: Concur. CBr has already considered automating the transaction bond
          process to provide enhanced tracking ability and control over these bonds. The process
          has been incorporated a part oflhe requiremenl in lhe AUlomated ommercial
          Environment (A E) argo Release.

           ompletion Date: June 30.2011

          Recommendation #3: evelop fomlal policies and procedures for the validation.
          approval. sufficiency. and storage processes for single transaction bonds.

          eBP Response: Concur. Current policies will be reviewed and updated in order to
          properly meellhi recommendation,

           ompletion Date: May IS. 2012

          Recommendation #4: Improve re enue risk management by developing a risk-ba cd
          bonding methodology for use on high-risk revenue imports that incorporates continuous
          bonds and ingle transaction bonds.

          enr Rcspon c: Concur. CBr will continue with il FY 2011 Revenue Priority Trade
          I sue Plan to determine whether a continuous bond policy can be implemented that
          replace lhe Enhanced Bond requirement (EBR) poli y for hrimp imports that CBr
          implemented to addre the retrospective nature of the U Antidumping! ountervailing
          duty (ADCYD) system. The EBR was found to be inconsistent with World Trade
          Organization (WTO) guidelines, and rescinded, As a result of the WTO guidelines, CBr
          cannot rai e importer bondsju t based upon the "Iikelihood" thaI the Department of
          Commerce can retTOspectively require importers to pay higher amounts of AD YO duties
          than tbey originally deposited at entry. ADCYD duties have represented 87% of all
          uncollectible duty, most of which is the result of higher final ADCVD duty assessments,
          However. even though, under a retrospective AD YO ystem. no [mite bond amount can
          guarantee coverage of potential ADCYD final assessments, ome form of combined
          continuous bond and single transaction bond policy for high risk importcrs may lessen the
          amount ofuncolleetible duty.

           omplction Date: May 15, 2012

          With regard to the sensilivity of the draft report. CBr did nOI identify any sensitive
          information that would require a "For Official Usc nly' designation or warrant
          protection under the Freedom of Information Act. Technical comment to the draft report
          arc provided in an attachment to this lelter.

          If you ha e any questions regarding thi respon e, plea e contact me or have a member of
          your sian' conIact Ms. Ashley Boone. CBP Audit Liaison at (202) 344-2539.

          Alta hment




                Efficacy of Customs and Border Protection’s Bonding Process
 


                                                   Page 13
 

Appendix C
Major Contributors to this Report

                    Jewel Butler, Director, Customs and Revenue Division
                    Ruth Blevins, Audit Manager
                    Yeseira Diaz, Audit Manager
                    Melissa Woolson, Program Analyst
                    Megan McNulty, Program Analyst
                    Irene Aultman, Referencer
                    Nancy Pergolizzi, Referencer




               Efficacy of Customs and Border Protection’s Bonding Process
 


                                         Page 14
 

Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Assistant Commissioner, Office of Field Operations
                      Assistant Commissioner, Office of Administration
                      Assistant Commissioner, Office of International Trade
                      Assistant Commissioner, Office of Internal Affairs
                      Deputy Director, Office of Audit Management and Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




               Efficacy of Customs and Border Protection’s Bonding Process
	


                                         Page 15
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
